                            UNITED STATES DEPARTMENT OF EDUCATION
                                   OFFICE OF INSPECTOR GENERAL


                                                      May 23, 2007
                                                                                                           Control Number
                                                                                                        ED-OIG/A19G0012


William Vajda
Chief Information Officer
Office of the Chief Information Officer
U.S. Department of Education
550 12th Street, SW
Washington, DC 20202


Dear Mr. Vajda:

This Final Audit Report, (Control Number ED-OIG/A19G0012) presents the results of our
audit of the Termination of EDNet Access for Separated Employees. The objectives of our audit
were (1) to determine whether access to the Department of Education (Department) Network
(EDNet) was terminated timely for employees who separated from the Department, and (2) in
cases where access was not terminated timely, determine whether separated employees accessed
EDNet after their departure, and if so, assess the impact of that access. Overall, we found
improvements are needed in the Department’s process for terminating EDNet access for
separated employees.




                                                 BACKGROUND



EDNet is a major information system that supports primary information technology (IT) services
for the Department and also serves as the chief communications link between Headquarters’
offices and the various regional and satellite offices. It is comprised of the network
infrastructure (routers, local area network cables, servers, etc.), desktops, standard desktop
software and email, Blackberries, printers, and telephony.

The system is owned and operated by the Office of the Chief Information Officer (OCIO), whose
responsibilities include management of the Department’s IT Security Program for automated
information systems, and development of agency-wide policy for the protection and control of
information resources directly or indirectly related to the activities of the Department. This
includes policies and procedures related to the creation, modification, and termination of EDNet
user accounts. To assist in the achievement of its principal objectives, the Department awarded a



         Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
Final Audit Report
ED-OIG/A19G0012                                                                                        Page 2 of 12

contract for EDNet services effective May 1, 2005. The EDNet contractor provides IT support
services including user account management.

The account termination process, as described by Department officials and the EDNet contractor,
requires communication within each Principal Office (PO), as well as coordination between the
POs, contractor-operated Help Desk, and OCIO. Within the PO, supervisors must notify their
Executive Officer when they learn an employee is leaving or has been terminated. They must
also complete an Account Termination Form (ATF) and submit this for approval by the PO IT
Coordinator. The PO IT Coordinator approves and submits the ATF to the Help Desk for
processing.

When the ATF is received, the Help Desk creates an electronic record (Help Desk Ticket) to
track the request. The Help Desk Ticket must be forwarded to the EDNet Account Manager, an
OCIO employee, for review and approval before any further action is taken. If approved, the
EDNet Account Manager sends the request back to the Help Desk, who disables the individual’s
EDNet access and marks their account for deletion. 1 After 15 workdays, the Help Desk deletes
the account from the Active Directory (AD), a listing of all network accounts.

Ongoing monitoring occurs in the form of account revalidations, performed by OCIO at the end
of each month to identify accounts that have not been accessed over the previous 90 days. A list
of inactive accounts is provided to the POs for confirmation of employee status. If the PO
determines an employee has separated from the Department, it notifies the EDNet Account
Manager, who completes and submits an ATF to the Help Desk for processing.




                                            AUDIT RESULTS



We found improvements are needed in the Department’s process for terminating EDNet access
for separated employees. We determined requests for account terminations were not submitted
timely, documentation of Help Desk actions was not always maintained, and procedures
established to identify users whose accounts should be removed were not followed. As a result,
accounts belonging to former employees remained active after their separation from the
Department. Because these accounts remained active, six permanently separated individuals
accessed their email accounts after their separation date. These separated employees may have
used the Department’s computer systems for unauthorized purposes.

In its response to the draft audit report, OCIO concurred with the finding and all associated
recommendations. OCIO proposed corrective actions to strengthen controls to ensure the timely


1
  It is important to note that disabled accounts are no longer active and cannot be accessed by the separated
employee. The account disable period exists so that, should anything occur that would require the account to be re-
enabled (i.e., need for user files, etc.), it can be done so relatively easily.
Final Audit Report
ED-OIG/A19G0012                                                                                       Page 3 of 12

and coordinated termination of EDNet access for separated employees. The complete text of the
response is included as Attachment 4 to this report.


FINDING – Improvements Are Needed in the Department’s Process for
Terminating EDNet Access for Separated Employees

We reviewed data related to personnel who separated from the Department in Fiscal Year (FY)
2006 and noted the following:

    •	 POs did not request the termination of EDNet access for separated employees in
       accordance with established standards. Specifically, POs did not submit ATFs used to
       start this process in a timely manner. Of the 389 accounts for which PO-initiated Help
       Desk Tickets were located, 195 (50 percent) included ATFs that were submitted more
       than 2 workdays after the employee’s departure from the Department (see Attachment
       1). On average, POs waited 11 workdays after the employee’s separation date before
       submitting an ATF to the Help Desk for processing. We noted failure to submit ATFs in
       a timely manner was systemic throughout the Department. 2

    •	 Help Desk Tickets were not available for 83 of the 487 accounts (17 percent) that were
       no longer in the AD or were inactive.

    •	 Procedures designed to identify users whose accounts should be removed were not
       followed. Specifically, we found the Office of Management’s (OM) Human Resources
       Systems Team (HRS) no longer provides OCIO with a biweekly report on personnel
       changes.

Handbook OCIO-01, Handbook for Information Assurance Security Policy (Handbook), dated
March 31, 2006, Section 4.1.5, states,

        Supervisors shall notify system administrators within two (2) business days of the
        departure of employees and contractors; notification shall be immediate in the case of
        involuntary separation. System access for voluntarily separated personnel shall be
        terminated as soon as possible, but no later than two business days of notification.
        Access for involuntarily separated personnel shall be revoked immediately. This applies
        to passwords, account user IDs, and all other access devices. When an employee or
        contractor’s termination is processed, system administrators must be advised immediately
        by the designated supervisor to disable or delete all accounts.

Standard Operating Procedure OCIO Computer Help Desk (Help Desk SOPs), dated October
12, 2006, Section 3.5.2, states,

2
 In discussions with OCIO and Help Desk staff, and through review of the EDNet Access Control and Help Desk
SOPs, it was noted that ATFs are the expected form of notification when requesting the termination of an
employee’s accounts, and that all accounts should be disabled within 48 hours of an employee’s separation from the
Department. This would require that POs notify system administrators within two (2) business days of departure, as
specified in the Handbook. Help Desk staff further stated requests lacking ATFs will not be processed.
Final Audit Report
ED-OIG/A19G0012                                                                         Page 4 of 12


       Closing the OCIO Computer Help Desk Ticket is the final step in problem resolution.
       The OCIO Computer Help Desk is responsible for closing all OCIO Computer Help Desk
       Tickets.

       The OCIO Computer Help Desk Ticket is available for a specified period for [service
       level agreement] SLA reporting, Root Cause Analysis, and Customer Status requests. At
       specified intervals, the Closed OCIO Computer Help Desk Tickets are archived or purged
       from the Problem Management System database.

The EDNet Support Services Contract (Contract) also includes documentation requirements for
Help Desk service requests. Table 71 (Help Desk Administration Roles and Responsibilities)
states the EDNet contractor shall,

       …Provide a system to document, manage and track all requests for service, problem
       reports and inquiries regardless of the means by which the request is submitted (e.g.,
       telephone, email, fax, direct online input by end-users, etc.), … Monitor and track all
       requests for service to closure.

According to Standard Operating Procedure EDNet Access Control (EDNet Access Control
SOPs), dated March 22, 2006, Section 7.4, OM HRS provides OCIO and the Help Desk with a
biweekly report on personnel changes in the Department. This procedure is intended to lessen
security risks and support the EDNet security policy to maintain the integrity of the user
database. Upon receipt of the report, the Help Desk updates the EDNet Exchange and Windows
account database.

As shown in Attachment 2, a lack of clear guidance regarding the account termination process
in various Departmental policies and procedures contributed to delays in the termination of
EDNet accounts for separated employees. For example, Departmental Directive OM: 3-104
(Directive), Clearance of Personnel for Separation or Transfer, does not explicitly state that POs
must complete and submit an ATF to the Help Desk when an employee separates from the
Department. Although ensuring the termination of network access is listed as a responsibility of
the Executive/Administrative Officer on an attachment to the Directive, how this is to be done,
and in what time frame, is not addressed. As further shown in Attachment 2, there is conflicting
guidance relating to responsibilities and timeliness requirements in the Handbook for
Information Assurance Security Policy, Information Technology Security Controls Reference
Guide, and EDNet System Security Plan.

We found there is no specific time requirement for the retention of documentation related to
account terminations in the Department’s policies and procedures, EDNet Access Control and
Help Desk SOPs, or the Contract. We contacted the EDNet contractor to determine how an
account could be disabled without an associated Help Desk Ticket, either generated per PO
request or as a result of the name appearing on the 90-day inactivity report, but the contractor
was unable to provide a definitive explanation. We asked if the Help Desk Tickets were purged
or archived from the system, as specified in the Help Desk SOPs, but contractor staff were
unable to confirm whether or not this occurred.
Final Audit Report
ED-OIG/A19G0012                                                                           Page 5 of 12

We learned the decision to discontinue use of OM HRS’ biweekly personnel change report was
made by OCIO in September 2005. OCIO staff stated the EDNet contractor was already
producing a 90-day report that listed inactive accounts as part of its revalidation process, and that
the OM HRS report often included extraneous information (i.e., data on individuals changing
POs, changes in the status of interns and other temporary employees, etc.) that made it difficult
to determine which accounts needed to be terminated and which ones were to remain active. We
were also told that because the biweekly report came from the payroll system, it was generally
about three weeks behind. As a result, by the time OCIO obtained the list of names, the
employees had been separated for weeks.

Failure to terminate access for separated employees may result in the exploitation of computer
systems for unauthorized use. It also increases the vulnerability of agencies to fraud and abuse.

Without adequate documentation to support requests for account terminations and actions taken,
the Department lacks assurance that accounts have been terminated in accordance with
established policies and procedures. This may also result in an inability to track requests
internally, provide feedback when customers seek updates, and assess the overall efficiency and
effectiveness of the process.

Failure to coordinate with OM HRS prevents OCIO and Help Desk staff from identifying
inactive accounts in a more timely manner (i.e., sooner than after 90 days of inactivity). In
addition, because the 90-day report identifies only those accounts that have been inactive, it is
possible that employees who left the Department but did not have their accounts terminated
could continue to access the system(s) and never show on the EDNet contractor’s report.

Interim Audit Memorandum Issued

We issued an interim audit memorandum entitled, “Termination of EDNet Access for Separated
Employees,” to OCIO on December 12, 2006. The memorandum included the names of 45
individuals who separated from the Department in FY 2006 but remained in the AD as of
October 25, 2006. OCIO responded, indicating that the accounts for all but 13 individuals, who
were determined to be active employees, were subsequently deleted. We determined these
individuals returned to the Department after separating in FY 2006.

We determined six of the permanently separated individuals accessed their email accounts after
their separation date. Although this represents only a small percentage of employees who
separated from the Department in FY 2006, the impact of just one individual accessing a system
with malicious intent could be substantial. We are currently conducting further analyses to
determine whether any of these individuals accessed other Department systems, and for what
purpose. Due to the time required to complete these analyses, the results are not included in this
audit report.

Recommendations:

We recommend that the Chief Information Officer take the following actions to ensure EDNet
access for separated employees is terminated in a timely manner:
Final Audit Report
ED-OIG/A19G0012                                                                       Page 6 of 12

   1.1 Review the Handbook for Information Assurance Security Policy, Information
       Technology Security Controls Reference Guide, the Department’s Directive on the
       Clearance of Personnel for Separation or Transfer, and the EDNet System Security Plan
       and make revisions, as necessary, to ensure consistency of guidance with regard to
       timeliness of notification of separation, method of notification (ATF or other acceptable
       form), and account termination. Consider consolidating some of these documents, if
       feasible, to reduce duplication and confusion.

   1.2 Revise the clearance form (ED Form EP2) to require PO Information Technology
       coordinators to certify that an ATF has been completed and will be submitted to the Help
       Desk immediately upon the employee’s separation from the Department.

   1.3 Amend the Department’s policies and procedures, EDNet Access Control and Help Desk
       SOPs, and the Contract to establish consistent guidance on the retention period for
       requests and other supporting documentation related to account terminations, as well as
       archiving and purging procedures and timeframes.

   1.4 Work with OM HRS to develop and implement a report for biweekly submission that
       includes only the names of those individuals who separated from the Department in the
       preceding pay period, and other information deemed relevant to OCIO. Ensure the
       appropriate termination of EDNet access for all separated employees.

OCIO Response:

In its response to the draft report, OCIO concurred with the finding and all associated
recommendations. OCIO stated it will revise policies and procedures to ensure consistency of
guidance with regard to the timeliness of notification of account terminations, as well as the
retention period for related requests, and consolidate documentation where feasible to reduce
duplication and confusion. In addition, it will revise the clearance form to require PO IT
coordinators to certify that an ATF has been completed and submitted when an employee leaves
the Department. Furthermore, OCIO will work with OM HRS to implement a process for
acquiring a biweekly report of recent employee separations. OCIO also noted it expects to make
significant improvements to the EDNet security posture after the award of the Managed Services
Security Provided (MSSP) and EDUCATE acquisitions.




                                   OTHER MATTERS



During our review, we noted no warning against unauthorized access of systems is provided
when individuals attempt to log in to their email accounts remotely via Outlook Web Access
(http://email.ed.gov). Such a warning not only would serve as a possible deterrent and valuable
security practice, but also is required by law.
Final Audit Report
ED-OIG/A19G0012                                                                          Page 7 of 12

The Department’s Information Technology Security Controls Reference Guide, referencing
Public Law 99-474, states that, “…if a system uses any external telecommunications mediums
(e.g. dial-up, Internet, etc), a warning banner must appear before the log-on sequence.”
Furthermore, the banner, “must state that the system is a U.S. Government system, information
contained in it is ‘For Official Use Only’ (“[sic] FOUO), and that attempts to illegally log on to
the system could lead to criminal prosecution punishable by fines or imprisonment.”

The Handbook for Information Assurance Security Policy states,

       Department computers and IT systems must display a sign-on warning banner at
       all log-on points, where technically practical. . .. At a minimum, warning banners
       must state that the use of the Department IT systems is subject to monitoring and
       is for limited personal use by Department personnel; all data contained on
       Department IT systems are property of the U.S. Government; and there can be no
       expectation of personal privacy on the Department IT systems.

We also noted the clearance form (Attachment 3) does not require employees to certify that they
will not attempt to access their email or any other systems once they have left the Department.

We suggest the CIO take the necessary steps to bring the Department into compliance with the
law as well as Department policy. We also suggest that the CIO revise the clearance form to
provide for the appropriate employee certification regarding unauthorized system access.

OCIO responded to the Other Matters presented, stating it has already implemented a new
warning banner on Outlook Web Access. OCIO also indicated it will revise the clearance form
to require employees to certify that they will not attempt to access their email or any other
systems once they have left the Department.




                     OBJECTIVES, SCOPE, and METHODOLOGY


The objectives of our audit were (1) to determine whether access to EDNet was terminated
timely for employees who separated from the Department, and (2) in cases where access was not
terminated timely, determine whether separated employees accessed EDNet after their departure,
and if so, assess the impact of that access. To accomplish our objectives, we performed a review
of internal control applicable to the account termination process. We reviewed applicable laws
and regulations, and Department and EDNet contractor policies and procedures. We conducted
interviews with Department officials and EDNet contractor staff to gain an understanding of how
EDNet accounts are terminated.

The scope of our review included employees who separated from the Department during FY
2006. We obtained a list of employees who separated from the Department in FY 2006 from
OM HRS. This list contained 530 records. We compared these records to a list of deleted
Final Audit Report
ED-OIG/A19G0012                                                                         Page 8 of 12

accounts obtained from the OCIO to determine if and when user accounts were deleted. We also
compared the list of separated employees to a list of accounts in the AD obtained from the
EDNet contractor to determine whether any accounts remained active after an employee
separated from the Department. See table below for a breakout of accounts:

                                Description                                Count
           Separated Employee, No AD Account                                394
           Separated Employee, Inactive AD Account                           93
           Separated Employee, Active AD Account                             43
           TOTAL                                                            530


We determined that 487 of the 530 accounts belonging to employees who separated from the
Department in FY 2006 were no longer in the AD or were inactive as of October 25, 2006. We
evaluated the timeliness of account terminations for these 487 accounts. To do this, we reviewed
the Help Desk Tickets generated by the EDNet contractor upon receipt of each ATF. We located
Help Desk Tickets for 404 of the 487 employees (83 percent) whose accounts were no longer
active. We determined 14 of these were generated by the EDNet Account Manager as a result of
the individual appearing on the 90-day inactivity list, meaning an ATF was likely never
submitted by the PO. These 14 were not included in our analysis of timeliness as a result. We
also judgmentally decided to remove one name because the account was disabled months before
the PO submitted the ATF.

We reviewed the Help Desk Tickets for the remaining 389 accounts to determine the average
time between an employee’s separation from the Department and PO submission of an ATF. We
also reviewed the Help Desk Tickets to determine the average time between receipt of an ATF
and disabling of the account by the EDNet contractor.

We relied on computer-processed data initially obtained from OM HRS to identify the universe
of employees who separated from the Department in FY 2006. An alternate data source was not
available to directly test the accuracy or completeness of this data. As a result, we were not able
to validate the reliability of the data provided by OM HRS. However, because this data was used
as a starting point for the reconciliation process, we deemed it sufficiently reliable for purposes
of our audit.

We conducted fieldwork at Department offices in Washington, DC, during the period of October
11, 2006 through January 30, 2007. We provided our audit results to OCIO staff during an exit
conference conducted on February 20, 2007. Our audit was performed in accordance with
generally accepted government auditing standards appropriate to the scope of the review
described above.
Final Audit Report
ED-OIG/A19G0012                                                                         Page 9 of 12



                            ADMINISTRATIVE MATTERS



Corrective actions proposed (resolution phase) and implemented (closure phase) by your office
will be monitored and tracked through the Department’s Audit Accountability and Resolution
Tracking System (AARTS). Department policy requires that you develop a final corrective
action plan (CAP) for our review in the automated system within 30 days of the issuance of this
report. The CAP should set forth the specific action items, and targeted completion dates,
necessary to implement final corrective actions on the finding and recommendation contained in
this final audit report.

In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the audits that remain unresolved after
six months from the date of issuance.

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

In accordance with the Freedom of Information Act (5 U.S.C. § 522), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation provided to us during this review. Should you have any
questions concerning this report, please call Michele Weaver-Dugan at (202) 245-6941.
Please refer to the control number in all correspondence related to the report.

                                      Sincerely, 




                                      George A. Rippey /s/ 

                                      Acting Assistant Inspector General for Audit Services 



cc: 	   Sally Budd, Chief of Staff
        Stephanie Hammes, Audit Liaison Officer

Attachments
Final Audit Report
ED-OIG/A19G0012                                                                                     Page 10 of 12

                                               Attachment 1

            No. of accounts for No. of accounts for which                               Average no. of days
             which Help Desk     ATF was NOT submitted by                             between separation date
               Tickets were     the PO within 2 workdays of Percent NOT submitted in per OM and submission of
    PO           located:             separation date:          a timely manner:     ATF (per Help Desk Ticket):
FSA                          99                         46                    46.46%                          9
IES                          13                         12                    92.31%                        13
NAGB                          1                          1                   100.00%                          3
NIL                           1                          0                     0.00%                         (2)
OCFO                         21                          5                    23.81%                          6
OCIO                          9                          3                    33.33%                        10
OCO                          19                         16                    84.21%                        19
OCR                          38                         20                    52.63%                        19
ODS                           4                          0                     0.00%                          1
OELA                          1                          1                   100.00%                        12
OESE                         19                          8                    42.11%                          8
OGC                           2                          1                    50.00%                        58
OIG                          21                          2                     9.52%                          6
OII                           9                          8                    88.89%                        23
OLCA                          2                          2                   100.00%                        20
OM                           24                         10                    41.67%                        10
OPE                          21                          5                    23.81%                          1
OPEPD                        10                          4                    40.00%                          4
OS                           22                          8                    36.36%                        13
OSDFS                         6                          4                    66.67%                          7
OSERS                        36                         33                    91.67%                        17
OUS                           2                          0                     0.00%                          0
OVAE                          9                          6                    66.67%                        24
TOTALS                   389                         195                    50.13%
Final Audit Report
ED-OIG/A19G0012                                                                           Page 11 of 12

                                          Attachment 2

          Criteria             Deactivation for      Deactivation     Identified Action   Use of ATF
                                  Voluntary        for Involuntary        Officials       Included in
                                 Separation          Separation                             Criteria
 Section 4.1.5 of the        Two work days for     Immediately        Supervisor and          No
 Handbook for Information    a supervisor to                          System
 Assurance Security Policy   notify system                            Administrators
                             administrators of
                             employee’s
                             separation and then
                             up to two
                             additional work
                             days after
                             notification for
                             account termination
 Section 4.1.1 of the        Within 24 hours of    Immediately        Not established         No
 Information Technology      the employee’s
 Security Controls           separation from the
 Reference Guide             Department
 Section VI.E of the         Not established       Not established    Executive Officer       No
 Directive on Clearance of                                            and OCIO
 Personnel for Separation
 or Transfer, and ED Form
 EP2
 Section 5.1.3.1.5 of the    Within 24 hours of    Within 24 hours    Principal Office        No
 EDNet System Security       notification          of notification,   Coordinator or
 Plan                                              or immediately     Computer Security
                                                   if requested       Officer and EDNet
                                                                      Account Manager
Final Audit Report
ED-OIG/A19G0012                                                                                            Page 12 of 12

                                                         Attachment 3


              Clearance of Personnel for Separation or Transfer
   Name of employee (Last, First, and Middle Initial)

   Forwarding address                           Name of organization

                                                Building and room #    Office Phone #       Home Phone #

   Reason for separation
        Resignation                      Retirement               Other (specify)
        Transfer to another              Involuntary
   ____________________________________
        federal agency                   separation
   ____________________________________
   Date SF 52 initiated     Date of separation              Position sensitive          Position non-sensitive

                              Part I – Executive/Administrative Officer
   A. Appropriate action must be taken to obtain clearances in the areas shown below.
     Do NOT check boxes until clearances are obtained.
       Advanced annual leave (# of hours _____) Travel advances
       Advanced sick leave (# of hours _____)         Property release
       Computer property                             Training agreements
       Network access terminated                     Service agreements
       Data files                                    Overpayments (one example is Salary Overpayments)

     Comments
   ______________________________________________________________________________
   Exit interview – GS-15 and above                    Date clearance package issued to employee
       Yes         No
   B. Must be cleared by last day
     Do NOT check boxes until clearances are obtained.
        Parking permit                           Office property
        Photo ID                                 Telephone calling cards
        Transit benefits                         Travel card

       Comments
   ______________________________________________________________________________
                                        Part II – Security Services
   Do NOT check boxes until clearances are obtained
      Security determination (debriefed)          Special ID Pass
                                                 Certification
   I understand that if I have outstanding obligations    Signature of employee            Date
   that have not been satisfied before my last day in
   the Department that my final paycheck and lump
   sum annual leave will not be released. I also
   understand that my retirement fund may be offset.
   (5 U.S. Code 5514)
   For return of government purchase card.                Signature of OCFO/CAM            Date

   Employee cleared all items. Arrangements have          Signature of Executive           Date
   been made for the employee to make restitution for     Officer
   monies owed.
                                                    ED Form EP2
                                             Attachment 4


                         UNlTED STATES DEPARTMENT OF EDUCATION
                                ornCE or TJJE CJJllf INf U1ll'lKflON DHICEJI




DATE:          May 11. 2007

TO:            George Rippey
               Acting Assistant Inspector General for Audit Services
               Office of Inspe clqr   4 ene#i\
FROM:          William Vajda
               Chief Information O ffiCft.
               Office of the Chief Inf0'{Jatlon Officer

SUBJECT:       Response to Draft Audit Report ED-OIG/At9G0012

Thank you for your draft audit report, Termination of EONet Access for Separated Employees, ED­
OIGIA 19GOO12 dated March 19th, 2007. The Department sincerely values the audit activity conducted
by the Office of the Inspector General (OIG) and appreciates the benefits of the collaborative
environment between OIG and the Department. formed through many years of partnering and the
sharing of mutual goals and objectives. The Department concurs with all findings described in the
aforementioned audit report.

Strong logical access control polices and procedures are essential to ensuring that information
resources and the information that they process, store and transmit are adequately protected by
maintaining confidentiality, integrity and availability. The Department concurs with the OIG's findings
that weaknesses exist in the implementation of logical access control, particularly in the areas of AC-1 .
Access Control Policies and Procedures, AC-2. Account Management and AC-3. Access Enforcement
as promulgated by NIST Special Publication 800-53, Recommended Security Controls for Federal
Information Systems and the Department's policies for access control.

The Office of the Chief Information Officer (OCIO) in coordination with the Office of Management (OM)
fully intends to implement the recommendations of the OIG in strengthening access controls on EDNet
through tim~ly and coordinated termination of logical access as mandated by policy. Additionally. the
Department expects to make significant improvements to the EDNet security posture after the award of
the Managed Services Security Provider (MSSP) and EDUCATE acquisitions.

Corrective Action Plan

Table 1.0 describes the corrective actions that will take place to remediate the findings presented by
the OIG. Proposed corrective actions will be entered in the AARTS and as each finding is completed,
evidence demonstrating remediation will be submitted to the Office of the Chief Financial Officer
(OCFO) for records management by the Post Audit Group (PAG).




                              400 ;\.'/IRYlAS D f ,\'r.• S.W.•   W .\~Hll':r.To..",.   DC 2' D2fJ1--13S0
                                                         '<"1\",.,. \U II'1\
                                                                Table 1.0 Corrective ActioD Plao



                                                                                                     IS necmary 10
                                                                                          luidUl~e  with regard IO timeliMSI of notiiicalion of
                                                                                          accou nt lemlinltion. Funhermorc, tho: Depar1ment
                                                                                          will coruolidlte documentation ...."her1: reasiblc 10
                                                                                          rduce dupl ication and confusion




                    T«hnology COllrdi""ton to certify that In ATF hu been c~kted Ind
                    will be submitted to the ho:lp dc$k immediately upon the cmploycc's                              an A TF hu been




                                                                                                                        cotiry that
                                                                                          not   .tte~l lo
                                                                                                       access the" email or any other
                                                                                          systems on« they have left tho: Dcpanmc:n1.




CC:
Michell Clark, Assistant Secretary for Management, OM
Brian Burns, Deputy Cia, OCIO
Jerry L Davis, Director, Information Assurance, OCIO
Corey Wells, Senior Advisor to OCID
